           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       REPRESENTATIVE PAYEES
   REPORTING CRIMINAL CONVICTIONS


      June 2010    A-13-09-19145




  EVALUATION
    REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      June 17, 2010                                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Representative Payees Reporting Criminal Convictions (A-13-09-19145)


           OBJECTIVE

           Our objective was to determine whether individuals accurately reported their criminal
           history to the Social Security Administration (SSA) when completing representative
           payee applications. Specifically, we reviewed applicants’ responses about being
           convicted of an offense that resulted in imprisonment for longer than 1 year.

           BACKGROUND

           Some individuals, because of their age or mental and/or physical impairments, are
           incapable of managing their finances. Congress granted SSA the authority to appoint
                                                                                                  1
           representative payees to receive and manage these beneficiaries’ benefit payments.
           A representative payee is the person, agency, organization, or institution selected to
           receive and manage benefits on behalf of an incapable beneficiary.

           The decision to make payment through a representative payee is serious since it
           deprives a beneficiary of direct control over personal finances and may affect the
           beneficiary’s manner of living. In recognizing the potential for a representative payee to
           mishandle benefits, Congress requires that SSA exercise care in determining that a
           representative payee is needed, in selecting a representative payee, and monitoring a
           representative payee’s performance.

           Certain individuals convicted of criminal offenses are prohibited from serving as
           representative payees. The Social Security Protection Act of 2004 (SSPA) generally
           disqualifies individuals from serving as payees if they are convicted of an offense that
           results in imprisonment for more than 1 year. 2 However, SSPA also allows SSA to
           make exceptions to allow such individuals to serve as representative payees. SSA
           policy states that an exception may be made after SSA considers information about the
           1
               The Social Security Act §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               Pub. L. No. 108-203 § 103, the Social Security Act § 205(j)(2), 42 U.S.C. § 405(j)(2).
Page 2 - The Commissioner


crime, such as the nature of the crime and when it occurred. The Agency also
considers whether the applicant has custody of the beneficiary, the applicant’s
relationship to the beneficiary, whether the applicant poses a risk to the beneficiary, and
whether there are more suitable applicants to be the payee. 3

We used a two-step process to identify certain individuals whose records indicated they
did not accurately report their criminal history when completing applications for
selection as payees. When an individual completes the Request to be Selected as
Payee, Form SSA-11-BK, he or she must answer the question, “Have you ever been
convicted of any offense under federal or state law which resulted in imprisonment for
more than one year?” We identified payees whose records showed they were not
truthful in responding to this question.

First, we identified payee applicants who answered “no” to the question and were
selected to serve as payees between April 1, 2005 and March 15, 2007. 4 We then
determined whether the applicants (1) had dates recorded in SSA’s Prisoner Update
                                 5
and Processing System (PUPS) indicating beginning and ending imprisonment
periods; (2) had imprisonment periods recorded in PUPS beginning at least 1 year
before being selected to serve as a payee; and (3) were serving as payees as of
March 25, 2009. Based on these criteria, we identified and reviewed 92 individual
representative payees.

Second, we identified payee applicants who met the same prior screening requirements
except they did not have imprisonment end dates recorded in PUPS. Based on these
selection criteria, we identified 9,183 individual representative payees. We placed
these payees in 2 groups: one group comprised 8,672 payees who were family
members (relatives) of the beneficiaries they served; the second group comprised
511 payees who were not related to the beneficiaries. We randomly selected for
review, 250 relative payees and 50 non-relative payees for a total of 300 payees. For
our sample cases, in addition to PUPS data, we searched LexisNexis Risk
                                                 6
Management Solutions database (LexisNexis) to determine whether incarceration data


3
 Program Operations Manual System (POMS) GN 00502.132 Selecting a Qualified Representative
Payee.
4
 We did not review applicants who answered “yes” to the imprisonment question. The Agency already
has a process to determine suitability when an applicant responds “yes” to the imprisonment question.
5
 Under the Social Security Act, SSA is prohibited from paying benefits to certain incarcerated
beneficiaries. To determine whether beneficiaries should be paid, SSA obtains incarceration data from
prisons and retains that information in a database called PUPS.
6
 To help identify resources that may affect eligibility and payments, SSA provides its field office staff
access to the LexisNexis database. LexisNexis is an Internet database that can be used to obtain
personal information. The LexisNexis Group is a global company that provides information to
Government, corporate, legal, and academic markets. Per POMS, SI 01140.105.D, information from the
LexisNexis database cannot be used to deny or suspend payments. However, the information can be
used to establish a lead, which should be developed accordingly.
Page 3 - The Commissioner


were present and indicated the payees were incarcerated for longer than 1 year. See
Appendices B and C for our Scope and Methodology, and Sampling Methodology and
Results, respectively.

RESULTS OF REVIEW
Some individuals had records that indicated they did not accurately report their criminal
history to SSA when completing representative payee applications. Our review of
information in PUPS found 92 individual representative payees—76 relatives and
16 non-relatives—were incarcerated for longer than 1 year even though they did not
disclose this information on their applications to serve as payees.

In addition, a comparison of information in PUPS 7 with data in LexisNexis 8 for the
300 sampled representative payees found 28 payees who were incarcerated for longer
than 1 year. Based on our sample results, we estimate 867 relative and 31 non-relative
payees were incarcerated for longer than 1 year and did not inform SSA of their
criminal histories.

PUPS RESULTS

Based on information recorded in PUPS, we found indications that individual
representative payees did not accurately report their criminal history to SSA. Limiting
our review to PUPS data, we found 92 individual representative payees with records
that showed an incarceration of more than 1 year. Of the 92 payees reviewed, 76 were
related to the beneficiaries they served (see Table 1).

               Table 1: Review of PUPS Records for Representative Payees
                                                               Number
                       Type of Representative Payee           of Payees     Percent
                    Relatives
                             Mother                                37            43
                             Father                                20            23
                             Grandparent                            6             7
                             Other Relative                         9            11
                             Spouse                                 3             3
                             Stepfather                             1             1
                       Subtotal                                    76            83
                    Non – Relatives                                16            17
                    Total                                          92           100




7
    SSA’s PUPS data in many cases did not contain a release date from prison.
8
 LexisNexis data do not contain Department of Correction information for the following nine States:
Alaska, California, Delaware, Hawaii, Massachusetts, North Dakota, South Dakota, Vermont, and
Wyoming.
Page 4 - The Commissioner


SAMPLE RESULTS

For the random samples of payees, we reviewed imprisonment data recorded in PUPS
and LexisNexis records. Of the 300 payees reviewed, we found 28 were imprisoned for
longer than 1 year. Of the 28 individual representative payees, 25 were relatives (see
Table 2).

                     Table 2: PUPS and LexisNexis Records
              for Representative Payees Related to the Beneficiaries
                                       Number of    Records Indicated
          Type of Representative       Payees in    Imprisonment for     Percent of
                  Payee                 Sample      More Than 1 Year      Sample
        Relatives
         Mother                            148              14                 9
         Father                             68               8                12
         Child                               5               1                20
         Other Relative                     29               2                 7
        Total                              250              25                10

Of the 8,672 relative payees identified, we estimate about 867 were imprisoned for
longer than 1 year. We estimate about 31 of the 511 non-relative payees identified
were also imprisoned for longer than 1 year. Because of the low number of payees we
identified, we do not believe that using PUPS and third party data to screen potential
payee responses would be a significant drain on the Agency’s resources. We estimate
about 5,000 applicants a year would require follow-up to determine suitability. If this
work were spread evenly among SSA’s about 1,300 field offices, it would only require
additional follow-up for about 4 applicants a year per field office.

We also found information pertaining to the type of crimes recorded in LexisNexis for
some payees. For the 28 payees with records that indicated imprisonment for longer
than 1 year, we found information pertaining to the type of crimes for 11. For example,
one payee received a 5-year prison sentence for assault in 1988, and a sentence of
about 9 years for sexual abuse in 1996. In another instance, a representative payee
received a 5-year prison sentence for robbery in 1997. See Table 3 for information
about the crimes committed by the 11 payees we identified.

                     Table 3: Information in LexisNexis Records
                  for Crimes Committed by Representative Payees

                          Type of Crime Committed           Number of Payees
             Theft, Robbery, Grand Larceny                           5
             Sexual Assault, Sexual Abuse, Assault                   3
             Possession of Controlled Dangerous Substance            2
             Intentional Maltreatment Causing Bodily Harm            1
                                  TOTAL                             11
Page 5 - The Commissioner


On November 20, 2009, we met with staff from SSA’s Office of Retirement and
Disability Policy, Office of Income Security Programs, to discuss the payees we
identified who were imprisoned for longer than 1 year. Staff reported SSA did not use
PUPS information to verify payee applicant responses. Also, SSA staff stated that they
recognize “self-reporting” of information on the payee application—especially criminal
history—is not always reliable.

When the Agency does not evaluate the suitability of such individuals to serve as
payees, it may be placing the beneficiaries and their payments at risk. According to
SSA staff, our work will be used in the Agency’s long-term plans to redesign its
Representative Payment System.

CONCLUSION AND RECOMMENDATIONS
We identified individuals serving as representative payees who did not accurately report
their criminal history when completing the representative payee application. In addition
to the 92 payees identified using PUPS data, we identified 28 additional payees using
LexisNexis data. We found about 10 percent of the relative payees and about
6 percent of the non-relative payees reviewed were imprisoned for longer than 1 year.
These payees may not be suitable representative payees because the Agency did not
know of their criminal histories before selecting them to serve as payees. As a result,
these payees may pose a risk to the beneficiaries they serve.

We recommend SSA:

1. Determine and implement a cost-effective method to use PUPS incarceration data
   and/or third party database information to assess individuals applying to serve as
   representative payees and use this information to determine the suitability of the
   payee applicants.

2. Review the 120 payees we identified to determine their suitability to continue to
   serve as representative payees.

AGENCY COMMENTS

The Agency agreed with our recommendations. See Appendix D for the full text of the
Agency’s comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Lexis-Nexis   LexisNexis Risk Management Solutions Database
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
PUPS          Prisoner Update Processing System
SSA           Social Security Administration
SSPA          Social Security Protection Act of 2004
U.S.C.        United States Code
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

• Reviewed applicable laws and Social Security Administration (SSA) policies and
  procedures.

• Reviewed prior Office of the Inspector General reports.

• Interviewed SSA personnel in the Office of Retirement and Disability Policy, Office of
  Income Security Programs.

• Used a two-step process to identify certain individuals who did not accurately report
  their criminal history to SSA when completing applications for selection as payees.
  When an individual completes the Request to be Selected as Payee,
  Form SSA-11-BK, he or she must answer the question, “Have you ever been
  convicted of any offense under federal or state law which resulted in imprisonment
  for more than one year?” A March 15, 2007 data extract of individual representative
  payees with specific attributes was used to identify the payees we reviewed.

   1. We identified payee applicants who answered "no" to the imprisonment question.
      We then determined whether the applicants (1) were selected between
      April 1, 2005 and March 15, 2007 to serve as payees; (2) had dates recorded in
      SSA’s Prisoner Update Processing System (PUPS) indicating beginning and
      ending imprisonment periods; (3) had imprisonment periods recorded in PUPS
      beginning at least 1 year before being selected to serve as payees; and (4) were
      serving as payees as of March 25, 2009. Based on these selection criteria, we
      identified and reviewed all 92 individual representative payees who met these
      criteria.

   2. We identified 9,183 individual representative payees using the screening
      requirements above but who did not have imprisonment end dates recorded in
      PUPS. These payees were placed into two groups: one group comprised
      8,672 payees who were family members (relatives) of the beneficiaries they
      served; the second group comprised 511 payees who were not related to the
      beneficiaries. A total of 300 payees were randomly selected for review—
      250 were related to the beneficiaries they served and 50 were non-relatives.
      See Appendix C for detail information on our Sampling Methodology and
      Results.

• Reviewed imprisonment information recorded in PUPS and/or the LexisNexis Risk
  Management Solutions Database (LexisNexis) for the individual representative
  payees to determine whether the payees were imprisoned for longer than 1 year.


                                          B-1
We were not always able to determine whether payee applicants accurately reported
                                                                                   1
their criminal history to SSA when completing payee applications because SSA and/or
           2
third party data did not contain the necessary information to determine whether
applicants were in prison for more than 1 year. As such, there may be additional
payees with criminal histories who we did not identify. We did not independently verify
the accuracy of payees’ criminal history information with criminal justice entities.

The entity reviewed was the Office of the Deputy Commissioner for Retirement and
Disability Policy. We performed our review in Baltimore, Maryland, from April to
November 2009. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.




1
    In many cases, SSA’s PUPS data did not contain a release date from the prison.
2
 LexisNexis data does not contain Department of Correction information for the following nine States:
Alaska, California, Delaware, Hawaii, Massachusetts, North Dakota, South Dakota, Vermont, and
Wyoming.


                                                    B-2
                                                                    Appendix C

Sample Methodology and Results
To accomplish our objective, we obtained a data extract of 9,183 payees as of
March 15, 2007 who were still serving as payees as of March 25, 2009 and met the
screening criteria outlined in Appendix B. Of the 9,183 payees, we established
2 sampling frames. One sampling frame consisted of 8,672 payees who were family
members (relatives) of the beneficiaries they served according to the Social Security
Administration’s (SSA) records. The second sampling frame was 511 payees who were
not related (non-relative) to the beneficiaries they served. Of the 8,672 relatives, we
selected a random sample of 250 payees for review. Of the 511 non-relative payees,
we selected a random sample of 50 payees for review. In total, we selected
300 payees for review.

We reviewed information recorded in the LexisNexis Risk Management Solutions
Database (LexisNexis) to determine period(s) of imprisonment. Each payee’s Social
Security number, name, and date of birth were searched in LexisNexis to determine
whether incarceration information could be located for the payee. When a payee was
found in LexisNexis, we examined the record for information pertaining to a sentence
that resulted in imprisonment of longer than 1 year. In addition, we examined the
database record for dates that showed the imprisonment was before the individual was
selected as a payee.

Based on our 2 samples, we determined that 28 of the 300 payees were imprisoned for
longer than 1 year. Of the 28 payees, 25 were payees who were family members of the
beneficiaries they served. The remaining three payees were not related to the
beneficiaries they served.

Projecting the results of our review to the applicable sampling frame, we estimate
867 (10 percent) relative payees (1) had periods of imprisonment that began at least
1 year before selection to serve as payees and (2) were imprisoned for longer than
1 year. Table C-1 provides details of our sample results and statistical projection.




                                         C-1
      Table C-1: Number of Relative Representative Payees with Information
                      Indicating Imprisonment of Longer Than 1 Year
 Population Size                                                              8,672
 Sample Size                                                                    250
 Number of relative representative payees with information indicating            25
 imprisonment of more than 1 year
 Projection of relative representative payees found to have information
 indicating imprisonment of more than 1 year
    Point Estimate                                                              867
    Lower Limit                                                                 615
    Upper Limit                                                               1,182
Note: All projections are at the 90-percent confidence level.

Using a straight-line estimation methodology, we estimate that 31 (6 percent)
non-relative payees (1) had periods of imprisonment that began at least 1 year before
selection to serve as payees and (2) were imprisoned for more than 1 year. Table C-2
provides details of our estimate.

   Table C-2: Number of Non-Relative Representative Payees with Information
                      Indicating Imprisonment of Longer Than 1 Year
 Population Size                                                                511
 Sample Size                                                                     50
 Number of non-relative representative payees found to have                       3
 information indicating imprisonment of longer than 1 year
 Estimate of non-relative representative payees found to have                    31
 information indicating imprisonment of longer than 1 year




                                                    C-2
                  Appendix D

Agency Comments
MEMORANDUM

Date:      June 7, 2010                                                           Refer To:

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor

Subject:   Office of the Inspector General Draft Report, Representative Payees Reporting Criminal
           Convictions (A-13-09-19145)


           This provides our revised comments on the subject report; it replaces our original comments of
           May 7, 2010. We apologize for the error in our first set of comments.

           Please let me know if I can be of further assistance. You may direct staff questions to Candace
           Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"REPRESENTATIVE PAYEES REPORTING CRIMINAL CONVICTIONS"
A-13-09-19145

Below are our responses to the two recommendations in the subject report.

Recommendation 1

Determine and implement a cost-effective method to use Prisoner Update Processing System
(PUPS) incarceration data and/or third party database information to assess individuals applying
to serve as representative payees and use this information to determine the suitability of the payee
applicants.

Comment

We agree. We will pursue enhancements to our PUPS/Representative Payee System data match
to improve screening of current representative payees and new applicants. We must note,
however, that any actions we take in this area will require us to modify existing systems’
processes. As with any information technology (IT) project, we will compare this requirement
with all potential uses of our limited IT resources to determine which investments will provide
the greatest return to the agency, the public, and our stakeholders.

Recommendation 2

Review the 120 payees we identified to determine their suitability to continue to serve as
representative payees.

Comment

We agree. We will review the 120 payees identified and determine their suitability to continue to
serve as payees. We plan to complete our review by June 18, 2010.




                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Parham Price, Auditor

   Brennan Kraje, Statistician

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-09-19145.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
